No. 19A_____
IN THE

Supreme Court of the United States
ADNAN SYED,
Applicant,
v.
STATE OF MARYLAND,
Respondent.

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rules 29.3 and 29.5(b), I, Catherine E. Stetson, a
member of the Bar of this Court, hereby certify that on June 17, 2019, a copy of the
foregoing Application for an Extension of Time to File a Petition for a Writ of Certiorari was served by overnight Federal Express to the following counsel for respondent:
Brian E. Frosh
Attorney General of Maryland
200 St. Paul Place
Baltimore, MD 21202
Thiruvendran Vignarajah
DLA PIPER LLP (US)
100 Light Street, Suite 1350
Baltimore, MD 21202

I further certify that all parties required to be served have been served.

//X1,(1,,

Date: June 17, 2019

therine E. Stetson

2

